                                  EVALUATION




  BUREAU OF LAND MANAGEMENT’S
  GEOTHERMAL RESOURCES
  MANAGEMENT




Report No.: CR-EV-BLM-0004-2012      March 2013
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OFTHE INTERIOR

                                                                               MAR 0 7 2013
Memorandum

To:            Neil Komze
               Principal Deputy Director, Bureau of Land Management

From:          Mary L. Kendall
               Deputy Inspector Gene

Subject:       Final Evaluation Report- Bureau of Land Management's Geothermal Resources
               Management
               Report No . CR-EV-BLM-0004-2012

      This memorandum transmits the results of our evaluation of the Bureau of Land
Management' s (BLM) Geothermal Resources Management.

       Given that the Nation faces significant challenges in meeting its current and future energy
needs and that renewable energy, including geothermal, is a key part of this effort, it is important
that BLM effectively manage geothermal operations on Federal lands.

       Our review concluded that the Geothermal Resources Operational Orders are outdated
and that BLM does not have a standardized geothermal inspection and enforcement program.

        We make four recommendations to help BLM manage geothermal resources more
effectively. BLM concurred with our recommendations and agreed to implement them. Based on
management's response to the draft report, we consider all four recommendations to be resolved
but not implemented. We will refer these recommendations to the Assistant Secretary for Policy,
Management and Budget to track their implementation. Accordingly, no further response to the
Office oflnspector General on this report is necessary.

       The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all reports issued, actions taken to implement our recommendation,
and recommendations that have been implemented.

       We appreciated the cooperation and assistance of BLM staff. If you have any questions
regarding this report, please call me at 202-208-5745.




                               Office of Inspector General I Washington, DC
Table of Contents
Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 2
   Objective ............................................................................................................. 2
   Background ......................................................................................................... 2

Findings................................................................................................................... 7
   Outdated Geothermal Resources Operational Orders ......................................... 7
   Inspection and Enforcement ................................................................................ 8

Conclusion and Recommendations Summary ...................................................... 10
   Conclusion......................................................................................................... 10
   Summary of Recommendations ........................................................................ 10

Appendix 1: Scope and Methodology................................................................... 12
   Scope ................................................................................................................. 12
   Methodology ..................................................................................................... 12

Appendix 2: BLM Response................................................................................. 13

Appendix 3: Status of Recommendations ............................................................. 20
Results in Brief
The Nation faces significant challenges in meeting its current and future energy
needs. Renewable energy is one key aspect to addressing these challenges. Many
Federal lands possess substantial renewable resources that will help meet the
Nation’s future energy needs while also providing significant benefits to the
environment and the economy. The Energy Policy Act of 2005 set a goal for the
U.S. Department of the Interior (Department) to approve 10,000 megawatts (MW)
per hour of additional electrical generation capacity from renewable energy on
Federal lands by 2015. In support of this initiative, Secretary of the Interior Ken
Salazar issued Secretarial Order No. 3285, “Renewable Energy Development by
the Department of the Interior,” that identifies the production, development, and
delivery of renewable energy as one of the Department’s highest priorities.

Geothermal operations on Federal lands contribute to the Department’s goal of
approving additional generation capacity. We found two issues that hinder a more
effective geothermal energy program at the Bureau of Land Management (BLM).
First, Geothermal Resources Operational Orders (orders) are outdated. BLM no
longer uses several of the orders, some orders reference organizations and
regulations incorrectly, one order has been in draft status since 1980, and none of
the orders address inspection and enforcement adequately.

Second, BLM does not have a standardized geothermal inspection and
enforcement program. We found variations in types of inspections conducted,
forms and formats used for conducting inspections, and frequency of inspections.
We also found issues concerning who is conducting inspections and the training
requirements for inspectors. Finally, we found inconsistencies in data collection
for inspections because there is no guidance on data collection.

We offer four recommendations to help BLM manage its geothermal resources
more effectively. We view this as an opportunity for BLM to update policies and
procedures for the program and increase the effectiveness of its geothermal
inspection and enforcement program.




                                                                                  1
Introduction
Objective
Our objective was to assess the Bureau of Land Management’s (BLM)
management and oversight of geothermal resources on Federal lands. This
included safety and environmental planning and induced seismicity. 1

Background
Due to economic, environmental, and national security needs, the United States
must become increasingly reliant on its own clean energy resources. The Energy
Policy Act of 2005 set a goal for the U.S. Department of the Interior (Department)
to approve 10,000 megawatts (MW) per hour of additional electrical generation
capacity from renewable energy on Federal lands by 2015. In support of this
initiative, Secretary Salazar issued Secretarial Order No. 3285, “Renewable
Energy Development by the Department of the Interior,” that states that the
production, development, and delivery of renewable energy is one of the
Department’s highest priorities.

BLM authorizes renewable energy projects on Federal lands as part of the
administration’s efforts to diversify the Nation’s energy portfolio. Geothermal
energy offers the Nation a clean, domestic, and abundant renewable resource.
Geothermal energy is defined as the heat from the Earth, and is considered
renewable. Conventional geothermal power plants use heat energy produced from
reservoirs of hot water below the Earth’s surface to power electrical generators.

Since 2009, the Department has increased geothermal electrical generation
capacity almost 50 percent from 942 MW to 1,366 MW. Geothermal leases on
Federal lands generated 4,600 gigawatts (4.6 million MW) of electrical power in
2011, providing enough electrical power for about 1.2 million homes. The power
generated from facilities on Federal leases amounts to more than 40 percent of
U.S. geothermal energy capacity and produces more than $12 million in royalties
to the U.S. Government each year.

For leasing purposes, geothermal resources are identified as all products of
geothermal processes, including indigenous steam, hot water, hot brines, and any
byproducts. Most Federal geothermal leases produce electrical power by using
one of the methods below to produce electricity (see Figure 1).




1
    See appendix 1 for our scope and methodology.




                                                                                   2
    Hot Water Flash                       Steam                          Binary




 Hot Water,                     Vapor-dominated,                Moderate
 Hydrothermal System—           Hydrothermal System—            Temperature,
 The part of the hot            Steam is used directly          Hydrothermal System
 water that flashes to          from wells to drive a           using a “binary”
 steam is separated and         turbine generator.              system—The
 used to drive a turbine        Wastewater from the             geothermal water is
 generator. Wastewater          condenser is injected           used to boil a second
 from the separator and         back into the subsurface        fluid (isobutane in this
 condenser is injected          to help extend the useful       example); the vapor
 back into the subsurface       life of the hydrothermal        then drives a turbine
 to help extend the useful      system.                         generator. The
 life of the hydrothermal                                       wastewater is injected
 system.                                                        back into the
                                                                subsurface to help
                                                                extend the useful life of
                                                                the hydrothermal
                                                                system.


Figure 1. Electrical generation from geothermal energy. Source: U.S. Geological Survey.

The Geothermal Steam Act of 1970 authorizes the Department to lease public
lands for geothermal development. Initially, the Department delegated the
authority for leasing to the U.S. Geological Survey (USGS). The delegation was
transferred to BLM in 1983. Currently, BLM has the authority for leasing
geothermal resources on 245 million acres of public lands. This includes 104
million acres of national forest lands managed by the U.S. Forest Service, U.S.


                                                                                            3
Department of Agriculture. Nine BLM State offices administer 816 geothermal
leases. Geothermal facilities currently operate on 72 leases in four States: Nevada
(34), California (32), Utah (5), and New Mexico (1).

The Geothermal Steam Act authorizes the Department to prescribe rules and
regulations for geothermal operations on Federal lands. These regulations are in
the Code of Federal Regulations (CFR), first issued in 1974 (30 C.F.R. § 270) and
later updated in 43 C.F.R. pt 3200. Additional changes to the regulations in 2007
address competitive leasing and include a new royalty computation formula. The
current regulations define the Geothermal Resources Operational Orders (orders)
as formal, numbered orders that BLM issues to implement or enforce the
regulations. The regulations also allow inspecting various aspects of geothermal
operations, including exploring, drilling, and using the resource. The current
orders were issued over 30 years ago by USGS, which no longer has authority
over the enforcement of the orders.

A developing method for tapping geothermal energy is called Enhanced or
Engineered Geothermal Systems (EGS). Rather than using the heat from wet rock
formations that contain steam or water, EGS targets hot, dry rock. In order to
develop an EGS system, a permeable zone must be created in the hot, dry rock so
water can be introduced into the rock to be heated and withdrawn (see Figure 2).
The technique for creating permeability in geothermal wells is called “hydraulic
shearing.” Hydraulic shearing is the process of injecting cold water into hot rock
to create cracks and fractures, a result of rapid cooling of the rock. Hydraulic
shearing is different from the “hydraulic fracturing” process used in oil and gas
development, which uses high pressures and chemicals to increase permeability.

According to the U.S. Department of Energy, EGS could increase generating
capacity by up to 40 times on both Federal and nonfederal lands by opening up
previously inaccessible geothermal energy in hot, dry rock. Present geothermal
power generation comes from geographically limited places in the Western
United States. EGS allows extending geothermal resources to larger areas of the
Western United States, as well as new geographic areas of the entire country.




                                                                                  4
                                                                                Two wells are
                                                                                drilled into the
                                                                                rock, and a
                                                                                permeable zone
                                                                                (pattern near the
                                                                                base of wells) is
                                                                                then created by
                                                                                hydraulic shearing.
                                                                                Cold water (blue)
                                                                                is then pumped
                                                                                down the well (left
                                                                                well), becomes
                                                                                heated as it flows
                                                                                through the
                                                                                permeable zone,
                                                                                and returns as hot
                                                                                water (red)
                                                                                through the second
                                                                                well (right well). At
                                                                                the surface, thermal
                                                                                energy is extracted
                                                                                in a heat exchanger
                                                                                and transferred to
                                                                                a working fluid. The
                                                                                cooled water, then,
                                                                                begins another
                                                                                circulation cycle.



Figure 2. Hot, dry rock EGS. Source: USGS 2

Recent public concern and attention has been given to induced seismicity
(triggered earthquakes created by injecting fluids into rock formations) associated
with energy development. Recent studies on induced seismicity by the USGS 3
and the National Research Council 4 suggest that changing pressure, fluid
imbalances, and proximity to faults contribute to induced seismicity. These
studies say that only a small fraction of the hundreds of thousands of energy
development sites in the United States have induced seismicity at levels that are
2
  U.S. Geological Survey, Circular 1249, Geothermal Energy—Clean Power From the Earth’s Heat, (2003).
http://pubs.usgs.gov/circ/2004/c1249/c1249.pdf
3
  U.S. Geological Survey, Is the Recent Increase in Felt Earthquakes in the Central U.S. Natural or Manmade,
(2012). http://www.doi.gov/news/doinews/Is-the-Recent-Increase-in-Felt-Earthquakes-in-the-Central-US-
Natural-or-Manmade.cfm
4
  National Research Council, Induced Seismicity Potential in Energy Technologies, (2012).
http://www.nap.edu/catalog.php?record_id=13355




                                                                                                          5
noticeable to the public. The consensus is that further research is required to better
understand and address the potential risks associated with induced seismicity.




                                                                                    6
Findings
We found two areas in our review of BLM’s geothermal program where BLM
could improve oversight and reduce risk of noncompliance. First, we found
outdated orders. Second, we found inconsistent inspection and enforcement of
geothermal operations.

Outdated Geothermal Resources Operational
Orders
USGS approved six of seven geothermal orders more than 30 years ago and one
has been in draft status since 1980. Because the orders are so outdated, they no
longer cite correct regulations and responsible parties, they fail to account for
technological advancements, and some are no longer applicable. The orders do
not incorporate inspection criteria and protocols for induced seismicity.

The current regulations, updated in 2007, define the orders as “a formal,
numbered order, issued by BLM, that implements or enforces the regulations.”
Present orders reference the old regulations, formerly codified at 30 C.F.R. part
270, rather than the current regulations at 43 C.F.R. part 3200. They also refer to
USGS as the responsible party rather than BLM.

BLM personnel reported that four of the orders (Orders 1, 4, 6, and 7) were no
longer applicable as the provisions of the orders have been incorporated into the
regulations. BLM personnel also reported that they currently only use two of the
orders (Orders 2 and 3) to regulate specific activities on BLM leases. Orders 2
and 3 were approved in 1975, and are outdated due to technological
advancements—for example the EGS process. To compensate for this, BLM
relies on additions to the “Conditions of Approval” section in geothermal drilling
permits to address those areas where the orders are insufficient. The result is a
web of requirements that include regulations, outdated orders, and “Conditions of
Approval,” rather than straightforward practices outlined in an order.

Order 4 also includes the provision: “If induced seismicity is determined to
represent a significant hazard, the Supervisor may require remedial actions
including, but not limited to, reduced production rates, increased injection of
waste or other fluids, or suspension of production.” Similar provisions are not in
the regualations. While a study by the National Research Council has
preliminarily concluded that current geothermal practices pose minimal risk of
induced seismicity, the increasing use of EGS may boost public concern of
seismic risks. In addition, as will be discussed more in-depth in the following
section, the orders have limited inspection and enforcement provisions and no
requirements for mandatory Bureau inspections of geothermal operations.

In response to our “Notice of Potential Findings and Recommendations” on this
issue, BLM responded that it concurred with our findings and our


                                                                                      7
recommendation to review and update the orders. BLM also agreed to develop
protocols for induced seismicity. As a result, BLM has contacted the U.S.
Department of Energy (DOE) and other Federal agencies about developing
protocols.

 Recommendations

        1. BLM should review and update existing orders to:
           a. determine the relevancy of existing orders;
           b. eliminate redundant, conflicting, or outdated requirements;
           c. include current standards and practices commonly included in
              Conditions of Approval; and
           d. include inspection criteria and procedures.

        2. BLM should develop and incorporate induced seismicity protocols
           into the orders.


Inspection and Enforcement
BLM does not have a standardized inspection and enforcement program. We
asked officials in California and Nevada for examples of their inspection process
and found variations in types of inspections conducted, forms and formats used
for conducting inspections, and frequency of inspections. We also found problems
in recruiting, retaining, and training inspectors; and inconsistencies in reporting
data into the geothermal database.

The current regulations issued in 2007, and the orders developed in the 1970s,
only minimally address inspection and enforcement. Except for a 1992 policy on
meter reading, there are no other national inspection and enforcement policies or
standards for geothermal operations. As a result, BLM has no guidance on what
inspections should be considered mandatory (other than the monthly
accountability inspections of production meters), how inspections should be done,
and frequency of inspections. This has created inconsistencies among BLM’s
State and field offices and makes it difficult to share promising practices.

In the absence of national policy or standards, each location we visited had
developed its own inspection process. One location emphasized “housekeeping”
issues, such as materials or trash left on the well pad, and improper or broken
signs and fences, while another location focused on safety and pipeline issues.
This presents different enforcement expectations for industry depending on where
their operations are located.

No standardized policy exists to identify who is qualified to perform inspections,
as well as the training required for inspectors. In some cases, this has led to
geothermal activities being inspected as a collateral duty by BLM personnel with
little or no experience in geothermal operations. BLM attempts to fill geothermal


                                                                                     8
oversight positions with Petroleum Engineering Technicians. These individuals
go through oil and gas inspection training and certification because geothermal
engineering technician positions and specific geothermal training do not exist. As
we found during our prior review of BLM’s oil and gas inspection and
enforcement activities, 5 BLM also has trouble hiring and retaining qualified
inspectors for geothermal oversight.

BLM uses the Geothermal Resources Automated Support System (GRASS)
database where it enters data on leases, customers, wells, facilities, well
production, well injection, well completion reports, inspections, bonds, and more.
BLM personnel can also enter enforcement information and generate standard
reports. We found, however, that BLM personnel do not enter the data
consistently because they do not have national guidance on data entry.

In response to our “Notice of Potential Findings and Recommendations,” BLM
responded that it would: 1) standardize the geothermal inspection and
enforcement program, which will model the oil and gas program where
appropriate; 2) include inspector training adopted on oil and gas PET training and
certification; and 3) reexamine staffing levels for inspectors.

    Recommendations

          3. BLM should create a standardized inspection and enforcement
             process for geothermal operations that specifies:
             a. who is to inspect what and how often;
             b. training requirements for inspectors; and
             c. what data is to be entered into the GRASS database, and how
                often.

          4. BLM should examine staffing levels of inspectors to ensure
             geothermal operations meet critical safety and environmental
             requirements.




5
 Office of Inspector General, Department of the Interior, No. CR-EV-BLM-0001-2009, Bureau of Land
Management's Oil and Gas Inspection and Enforcement Program, (December 2010).


                                                                                                    9
Conclusion and Recommendations
Summary
Conclusion
With the Department’s priority on renewable energy projects and the projected
increase in geothermal projects, the urgency of managing and protecting Federal
geothermal resources will have increasing importance. By implementing our
recommendations, BLM could improve its oversight role and reduce risk of
noncompliance.

Summary of Recommendations
We recommend that:

   1. BLM should review and update existing orders to:
      a. determine the relevancy of existing orders;
      b. eliminate redundant, conflicting, or outdated requirements;
      c. include current standards and practices commonly included in
         Conditions of Approval; and
      d. include inspection criteria and procedures.

       BLM Response: BLM concurred with the recommendation and will 1)
       consider incorporating current standards and practices that are commonly
       included in conditions of approval and the inspection criteria and
       procedures; 2) pursue rulemaking to update and revise Orders 2 and 3
       according to the results of the review; and 3) will also consider revising
       Order 1, which applies to temperature gradient wells, as it contains
       information not covered in the regulations.

       OIG Reply: We consider this recommendation resolved but not
       implemented.

   2. BLM should develop and incorporate induced seismicity protocols into the
      orders.

       BLM Response: BLM partially concurred with this recommendation,
       agreeing that it should provide additional guidance on potential induced
       seismicity impacts at geothermal energy projects on Federal lands. BLM
       does not agree that the current DOE Induced Seismicity Protocol
       (Protocol) should be incorporated into the Orders at this time. To address
       the complexities involved, BLM and DOE Geothermal Technologies
       Program are discussing tailoring the Protocol to meet BLM's mission and
       to address different situations presented by the BLM's regulations and
       management authorities.



                                                                                10
   OIG Reply: We accept BLM’s approach and consider this
   recommendation resolved but not implemented.

3. BLM should create a standardized inspection and enforcement process for
   geothermal operations that specifies:
   a. who is to inspect what and how often;
   b. training requirements for inspectors; and
   c. what data is to be entered into the GRASS database, and how often.

   BLM Response: BLM concurred with the recommendation to establish a
   consistent Geothermal Inspection and Enforcement program modeled on
   the existing oil and gas program. BLM believes the development of an
   instruction manual and manual/handbook, similar to the oil and gas H-
   3160-5 “Inspection and Enforcement Documentation and Strategy
   Handbook,” rather than development of regulations or an order, provides
   the greatest flexibility for implementation.

   OIG Reply: We consider this recommendation resolved but not
   implemented.

4. BLM should examine staffing levels of inspectors to ensure geothermal
   operations meet critical safety and environmental requirements.

   BLM Response: BLM concurred with the recommendation, noting that a
   part of the information manual and manual handbook will include
   guidelines to assist in determining inspection and enforcement workloads
   in order to forecast appropriate inspector staffing levels.

   OIG Reply: We consider this recommendation resolved but not
   implemented.




                                                                           11
Appendix 1: Scope and Methodology
Scope
We focused on the Bureau of Land Management’s (BLM) oversight of
geothermal policies and procedures, and especially focused on the inspection and
enforcement process. Geothermal royalty considerations were not included in this
review as the Office of Inspector General completed a review of these processes
in 2010. 6

Methodology
We conducted this evaluation in accordance with the “Quality Standards for
Inspection and Evaluation” issued by the Council of the Inspectors General on
Integrity and Efficiency in January 2011. We conducted the evaluation from
March through July 2012. We believe the work performed provides a reasonable
basis for our conclusions and recommendations.

We reviewed laws, regulations, policies, and procedures related to geothermal
leasing activities; examined geothermal inspection and Geothermal Resources
Automated Support System reports; examined geothermal leasing documents and
interagency agreements; reviewed current geothermal studies; and interviewed
knowledgeable geothermal personnel.

We visited or contacted the following organizations:

         •    BLM Program Office, Washington, DC;
         •    BLM California State Office, Sacramento, CA;
         •    BLM Desert District Office, Moreno Valley, CA;
         •    BLM Ukiah Field Office, Ukiah, CA;
         •    BLM Ridgecrest Field Office, Ridgecrest, CA;
         •    BLM Colorado State Office, Lakewood, CO;
         •    BLM Nevada State Office, Reno, NV;
         •    BLM Utah State Office, Salt Lake City, UT;
         •    U.S. Geological Survey, Earthquake Science Center, Menlo Park, CA;
              and
         •    U.S. Geological Survey, Pacific SW Area, Menlo Park, CA.




6
 Office of Inspector General, Department of the Interior, No. C-IN-MOA-0004-2009, Geothermal Royalties
(March 2010).


                                                                                                    12
Appendix 2: BLM Response
The Bureau of Land Management’s response to our draft report follows on page
14.




                                                                           13
14
15
16
17
18
19
Appendix 3: Status of
Recommendations
In response to our draft report BLM concurred with recommendations 1, 3, and 4.
BLM partially concurred with recommendation 2 and we accept their approach.
We consider all recommendations resolved but not implemented. The table below
summarizes the status of the recommendations.


    Recommendations                   Status              Action Required


                                                       Recommendations will
                                                       be referred to the
                               Resolved but not
              1                                        Assistant Secretary for
                               implemented.            Policy, Management and
                                                       Budget for tracking
                                                       implementation.


                                                       Recommendations will
                                                       be referred to the
                               Resolved but not
              2                                        Assistant Secretary for
                               implemented.            Policy, Management and
                                                       Budget for tracking
                                                       implementation.


                                                       Recommendations will
                                                       be referred to the
                               Resolved but not
              3                                        Assistant Secretary for
                               implemented.            Policy, Management and
                                                       Budget for tracking
                                                       implementation.


                                                       Recommendations will
                                                       be referred to the
                               Resolved but not
              4                                        Assistant Secretary for
                               implemented.            Policy, Management and
                                                       Budget for tracking
                                                       implementation.




                                                                             20
                                    


            Report Fraud, Waste,                                      
            and Mismanagement
                                       
                  Fraud, waste, and mismanagement in
                  government concern    everyone: Office
                of Inspector General staff, Departmental
                 employees, and the general public. We
                    actively solicit allegations of any
                           and wasteful practices, fraud,
                inefficient
                     and mismanagement related to
               
                 Departmental or Insular Area programs
                                                         
                     and operations.  You can report
                    allegations to us  in several ways.
                                        
                                    
                                    
     By Mail:           U.S. Department of the Interior  
                        Office of Inspector General  
                        Mail Stop 4428 MIB  
                        1849 C Street, NW  
                        Washington, D.C. 20240  
      
     By Phone:          24-Hour Toll Free                               
                                                            800-424-5081
                        Washington Metro Area               202-208-5300
                                                                        
      
     By Fax:            703-487-5402
      
     By Internet:       www.doioig.gov
  
                                                                            
